Audit of USAID/Liberia's Compliance with
the Brooke Amendment and Sections 620(q)
and 617 of the Foreign Assistance Act of
1961
Audit Report No. 7-669-02-001-P
March 7, 2002




                Dakar, Senegal
U.S. Agency for
  INTERNATIONAL
   DEVELOPMENT

RIG/Dakar


March 7, 2002

MEMORANDUM
FOR:              Edward Birgells, USAID/Liberia Director

FROM:             Dennis Bryant, Acting Regional Inspector General/Dakar

SUBJECT:          Audit of USAID/Liberia’s Compliance with the Brooke
                  Amendment and Sections 620(q) and 617 of the Foreign Assistance
                  Act of 1961 (Report No. 7-669-02-001-P)


This memorandum is our report on the subject audit. We have considered your
comments to the draft report and have included them in their entirety as Appendix II.
The report contains no recommendations for your action.

I appreciate the cooperation and courtesy extended to our staff during the audit.




                                                                                    1
Table of                                                                      Page
Contents
           Summary of Results                                                   3

           Background                                                           3

           Audit Objective

                  For its programs in Liberia, and for its Fiscal Year 2000
                  appropriations, did USAID/Liberia comply with and
                  implement selected criteria of the Brooke Amendment
                  and Sections 620(q) and 617 of the Foreign Assistance
                  Act of 1961?                                                  4

           Audit Findings                                                       4

                  Activities Continued Under Statutory Authorities              5

           Management Comments and Our Evaluation                               6

           Appendices

                  Scope and Methodology                                         7

                  USAID/Liberia’s Management Comments                           9

                  Description of Activities                                    10




                                                                                2
Summary of   Liberia became subject to Section 620(q) and Brooke Amendment sanctions for
Results      fiscal year 2000 funds when the appropriations act1 was signed on November 29,
             1999. As a result, no part of any fiscal year 2000 appropriation contained in the Act
             should have been used to furnish assistance to Liberia. However, there are several
             notwithstanding legislative authorities that allow assistance to be furnished to a
             country subject to Section 620(q) and Brooke despite the prohibitions arising from
             the legislative sanctions (Page 3).

             We designed the audit to determine whether USAID/Liberia had complied with
             selected criteria of the Brooke Amendment and Sections 620(q) and 617 of the
             Foreign Assistance Act of 1961, as amended, for fiscal year 2000 funding. The
             audit disclosed that USAID/Liberia had complied with the above legislation. The
             audit report contains no recommendations (Page 4).

             After Liberia became subject to Section 620(q) and Brooke, USAID/Liberia
             prepared a “wind up” plan, identifying those activities that it wanted to fund with
             fiscal year 2000 appropriations. It then requested appropriate waivers under
             available notwithstanding authorities, which were subsequently approved by the
             Assistant Administrator for the Africa Bureau and the USAID Administrator.
             USAID then notified Congress, accordingly, of the program changes for those
             waivers requiring such notification. After the congressional notification period had
             expired, USAID/Liberia then obligated the fiscal year 2000 funds in compliance
             with the subject legislation (Page 5).

             Mission management provided no official comments regarding the findings in this
             report. However, they unofficially informed us that they had no comment on the
             report and accepted it as written.



Background   The United States has made loans to many countries throughout the world. If a
             country fails to pay either the principal or interest on these loans, as specified in the
             loan agreements, certain legislative sanctions are to be enforced. These sanctions
             are found in the Foreign Assistance Act of 1961, as amended (FAA), and the
             individual fiscal year appropriations acts (the Act).

             Section 620(q) of the FAA provides that assistance under the FAA shall not be
             furnished to any country that is in default for a period of six months or more on the
             principal or interest on any loans made by the United States under the FAA. The
             Brooke Amendment is Section 512 of the Act for fiscal year 2000. It provides that
             no part of any appropriation contained in the Act shall be used to furnish assistance


             1
              Foreign Operations, Export Financing, and Related Programs Appropriations Act, fiscal year
             2000


                                                                                                           3
                  to a country that is in default for 12 months or more in payment of principal or
                  interest on any loan made by the United States for programs under the Act.
                  Liberia has been in violation of Section 620(q) of the FAA and the Brooke
                  Amendment since December 31, 1988 and July 1, 1989, respectively. Although
                  prior appropriation acts contained statutory waivers for Section 620(q) and Brooke
                  sanctions for Liberia, the fiscal year 2000 appropriations act did not include such a
                  waiver. As a result, Liberia became subject to Section 620(q) and Brooke sanctions
                  for fiscal year 2000 funds when the Act was signed on November 29, 1999.

                  Since prior year statutory waivers remain in effect, the Brooke Amendment and
                  Section 620(q) do not affect prior year funds, and USAID may continue to use those
                  funds. Additionally, for fiscal year 2000 funds, there are a number of
                  notwithstanding authorities in the FAA and the Act that permit the furnishing of
                  assistance notwithstanding the prohibitions on assistance included in Section 620(q)
                  and the Brooke Amendment. Section 617 of the FAA provides for up to eight
                  months of funds availability for expenses associated with the winding up of
                  terminated programs. Other authorities include exemptions for child survival and
                  AIDS-related activities, activities assisting victims of war and displaced children,
                  and certain activities determined to be in the national interest of the United States.

                  USAID reported that Liberia’s debt to the United States was $365 million as of
                  March 31, 1995, and that the total requirements for its external debt service
                  exceed half the entire national budget. For fiscal year 2000 funds, USAID/Liberia
                  reported obligations of $8.14 million.

                  The audit field work began at USAID/Ghana on August 13, 2001 and ended at
                  USAID/Liberia on September 7, 2001.



Audit Objective   As part of our fiscal year 2001 annual audit program, we performed this audit to
                  answer the following audit objective:

                  For its programs in Liberia, and for its Fiscal Year 2000 appropriations, did
                  USAID/Liberia comply with and implement selected criteria of the Brooke
                  Amendment and Sections 620(q) and 617 of the Foreign Assistance Act of
                  1961?

                  Appendix I contains a complete discussion of the scope and methodology for the
                  audit.



Audit Findings    The audit disclosed that USAID/Liberia complied with and implemented selected criteria of the
                  Brooke Amendment and Sections 620(q) and 617 of the Foreign Assistance Act of 1961 for fiscal
                  year 2000 appropriations. It prepared a “wind up” plan in accordance with USAID guidance,
                  obtained required waivers under available statutory authorities for activities that it wanted to



                                                                                                                 4
continue, and notified Congress as required by certain waivers. After the congressional
notification period had expired, USAID/Liberia then obligated fiscal year 2000 funds for the
continuing activities in compliance with the above legislation. These procedures are discussed
below.

Activities Continued
Under Statutory Authorities

In January 2000 USAID/Washington issued guidance2 to USAID/Liberia to cease
recording obligations for assistance to Liberia, pursuant to the Brooke
Amendment contained in the individual appropriation acts (the Act). The
guidance requested USAID/Liberia to prepare and submit to USAID/Washington
a plan for the orderly “wind up” of affected assistance to Liberia.

The guidance required that the “wind up” plan be a comprehensive list of all
USAID-funded activities in Liberia so that all activities could be considered for
possible continuation under applicable statutory waivers. Each program was to be
reviewed in order that the Africa Bureau could decide on whether to continue or
terminate the program. Additionally, the plan was to include (1) a description of
all assistance activities being conducted in Liberia; (2) a brief discussion of the
effect of suspension or termination of the programs and/or activities; and (3)
identification of exemptions/waivers/exceptions available for continuing the
activity and a recommendation whether and how it should be utilized.
USAID/Liberia prepared the plan for approval by USAID’s Assistant
Administrator for Africa and the Administrator in April 2000.

As a result of its analysis, as described in its “wind up” plan, USAID/Liberia
decided to fund 17 activities based on various statutory authorities or exceptions that
allowed it to obligate fiscal year 2000 funds despite the Section 620(q) and Brooke
Amendment sanctions. The three statutory authorities used by USAID/Liberia are
as follows.

        Section 522 authority—Section 522 of the Act permits child survival and
disease funds to be used for child survival, and HIV/AIDS-related activities,
notwithstanding any provision of law that restricts assistance to foreign countries.
The plan recommended, as a matter of policy, the continuation and obligation of
fiscal year 2000 funds for five child survival and HIV/AIDS-related activities. As
a matter of policy, the Assistant Administrator for the Bureau for Africa approved
these activities in July 2000. USAID/Liberia then obligated $2.38 million for
these activities.

        Section 538(a) authority—Section 538(a) of the Act provides authority to
use development assistance and economic support funding to support programs of
assistance for victims of war or displaced children, notwithstanding any provision
of law that restricts assistance to foreign countries. The plan recommended, as a

2
    Cable SECSTATE 00466, dated January 3, 2000


                                                                                                 5
                 matter of policy, the continuation and obligation of fiscal year 2000 funds for two
                 victims of war or displaced children activities. As a matter of policy, the Assistant
                 Administrator for the Bureau for Africa approved these activities in July 2000.
                 USAID/Liberia then obligated $1.75 million under these activities.

                         Section 541(a) authority—Section 541(a) of the Act permits USAID to
                 provide assistance to non-governmental programs, notwithstanding any provision
                 of law that restricts assistance to foreign countries. The President (this authority
                 has been delegated to the Administrator of USAID3) must consider it in the U.S.
                 national interest to do so, and Congress must be notified prior to the resumption
                 of activities. The plan recommended, as a matter of law, the continuation and
                 obligation of fiscal year 2000 funds for ten activities under this authority. The
                 USAID Administrator on July 14, 2000, taking into consideration that it was in
                 the U.S. national interest and pursuant to Section 541(a), approved the
                 continuation and obligation of fiscal year 2000 funds for the ten activities. USAID
                 subsequently notified Congress on July 25, 2000, of the program change.

                 After obtaining approvals from the Africa Bureau and the Administrator, and
                 waiting for the congressional notification period to expire, USAID/Liberia obligated
                 $3.71 million for these ten continued activities.

                 Funding for two activities in the “wind up” plan was transferred to the Africa
                 Bureau. Of the Section 541(a) amount above, $540,000 was carryover funds from
                 previous years that were not subject to Brooke. In addition, $300,000 of carryover
                 funds were obligated for an additional activity4 not funded on the “wind up” plan
                 that was not subject to Brooke. Total obligations for fiscal year 2000 came to $8.14
                 million. A brief description of the continued activities is presented in Appendix III.



Management       Mission management provided no official comments regarding the findings in this
Comments and     report. However, they unofficially informed us that they had no comment on the
Our Evaluation   report and accepted it as written.




                 3
                     Executive Order 12163 as amended and State Department Delegation of Authority No. 145.
                 4
                     Micro-project Support for Resettlement and Re-integration, Project No. 669-0226




                                                                                                              6
                                                                                            Appendix I


Scope and     Scope
Methodology
              The audit was conducted in accordance with generally accepted government
              auditing standards and assessed whether, for its programs in Liberia,
              USAID/Liberia complied with selected sections of recent legislation. This
              legislation addresses the suspension of assistance to countries who are in default
              for a period of six months or more on the principal or interest on any loans made by
              the United States under the Foreign Assistance Act of 1961, as amended.

              Field work was performed at the following locations:

              !   from USAID/Ghana from August 13, 2001 through August 17, 2001; and
              !   USAID/Liberia August 29, 2001 through September 7, 2001.

              In answering our audit objective, our audit scope included USAID supported (i.e.
              funded) activities funded with fiscal year 2000 appropriations, which were being
              implemented in Liberia from the date of the signing of the fiscal year 2000
              appropriation act though the end of our fieldwork. We assessed management
              controls over these funds governing the identification, analysis, and ultimate
              disposition of funding as they related to selected sections of the Foreign Assistance
              Act of 1961 and the appropriations acts.

              The principal audit criteria that we used were Sections 512, 522, 538(a) and 541(a)
              of the appropriations act for fiscal year 20005, as well as Sections 620(q) and 617 of
              the Foreign Assistance Act. We also used guidance provided by
              USAID/Washington to USAID/Liberia regarding the preparation of the “wind up”
              plan and the requirements for congressional notifications.

              We examined all activities on USAID/Liberia’s “wind up” plan and reported in the
              Mission’s accounting system (maintained by USAID/Ghana) as activities in Liberia,
              which were funded by fiscal year 2000 appropriations. In addition, we looked at
              certain activities that were being conducted in the country during fiscal year 2000 by
              the Global Bureau. We determined that these activities had not used fiscal year
              2000 funds and, therefore, were not subject to the Brooke Amendment and Section
              620(q) of the Foreign Assistance Act.

              We examined all of the $8.14 million fiscal year 2000 appropriations obligated in
              fiscal year 2000 by USAID/Liberia. Although coded as fiscal year 2000
              appropriations, some of these funds were actually carryover funds from prior years,
              and therefore not subject to the Brooke Amendment and Section 620(q).




              5
               Foreign Operations, Export Financing, and Related Programs Appropriations Act, fiscal year
              2000


                                                                                                            7
Methodology

To assess management controls, the methodology included: (1) reviewing Global
Bureau program activities to determine if they included activities in Liberia funded
by fiscal year 2000 appropriations, (2) examining appropriate documentation, and
(3) conducting interviews with cognizant officials to determine whether the Mission
had met its responsibilities established by Section 512 of the fiscal year 2000
appropriations act, as well as Sections 620(q) and 617 of the FAA.

To answer our audit objective, we: (1) reviewed USAID/Liberia’s “wind up” plan
for activities in Liberia; (2) reviewed program documentation maintained by
USAID/Ghana and USAID/Liberia; (3) reviewed approvals and waivers issued by
the USAID Administrator and the Assistant Administrator for the Africa Bureau;
and (4) conducted interviews with cognizant officials of USAID in Ghana, Liberia
and Washington, as well as the Regional Legal Advisor in Dakar.

Due to the importance of USAID complying with the Brooke Amendment of the
fiscal year 2000 appropriation act and Section 620(q) of the Foreign Assistance Act
of 1961, for reporting purposes we identified our materiality threshold as any
activity, regardless of size, as having operations in Liberia.




                                                                                   8
                                                                       Appendix II



Management   Management provided no official comments on the report.
Comments




                                                                                     9
                                                                                       Appendix III

Description
of Activities

        Activities Funded by Fiscal Year 2000 Appropriations and Implemented in Liberia
        Name of Activity                                  Description of Activity
Liberian Election Management      Media promotion activity to establish an independent and
Assistance (Activity No. 669-     responsible voice in the broadcast media, which includes
0219)                             independent news coverage, and community service programming.
Democracy and Human Rights        Funding to democracy and human rights groups to promote civil
(Activity No. 698-0588)           society participation in activities that protect human rights and
                                  strengthen good governance.
Liberia Rehabilitation,           Vocational skills training program focusing on trauma counseling,
Reconstruction & Recovery         appropriate skills training, follow-up services, agricultural
(Activity No. 669-0222)           production and basic education.
Accelerated Vocational Training Vocational skills training program to provide short-term
for Demobilized Soldiers          rehabilitation, education, and technical/vocational skills training.
(Activity No. 669-0224)
Community Health Initiative       Child survival and safe motherhood project designed to improve the
(Activity No. 669-0228)           health of women of reproductive age and children under five years.
Better Health Practices (Activity Program to improve primary health care services by reducing
No. 669-0232.01)                  morbidity and mortality among children, women and the disabled.
Better Health Practices (Activity Child survival and safe motherhood project designed to improve the
No. 669-0232.02)                  health of women of reproductive age and children under five years.
Better Health Practices (Activity Maternal child health project to improve the health of women and
No. 669-0232.03)                  children.
Rehabilitation of Liberia’s Food Program to strengthen the capacity of local non-governmental
Production Capacity (Activity     organizations, community groups and individual farmers in food
No. 669-0233.01)                  production and cash crop and tree crop revitalization.
Rehabilitation of Liberia’s Food Food crop production program with the aim of increasing food
Production Capacity (Activity     production by introducing high-yielding crop varieties and
No. 669-0233.02)                  improved farming techniques to community groups.
Rehabilitation of Liberia’s Food Food crop production and small ruminant project to promote
Production Capacity (Activity     integrated agriculture development and food security.
No. 669-0233.03)
P.L. 480 Title II—Transitional    Program to support agricultural recovery and rural rehabilitation,
Assistance Program (Activity      re-establish and improve the quality of primary education, and
No. 669-0234)                     support institutions providing health care and vocational training.
African Disease Control           Polio eradication initiative to strengthen routine immunization
(Activity No. 698-0559.02)        services by contributing to development of sustainable
                                  immunization and disease control programs.
Special Self Help (Activity No.   Project to support the participation of local communities in
698-9901.69)                      activities that improve their welfare by encouraging self-reliance
                                  within the communities to undertake other activities by themselves.


                                                                                                    10
USDA RSSA (Activity No. 698-      Program to enable short and long-term advisors to provide
PARTS)                            professional services in strategic planning, policy development,
                                  food security initiatives and impact assessment.
Prosthetics and Orthotics         Program to establish an ten-year plan for orthopedic assistance and
Support (Activity No. 669-0235)   rehabilitation, and provision of training for orthopedic technicians,
                                  technical assistance for institutional strengthening training for
                                  appropriate home-based rehabilitation, and identification and
                                  referral of those in need of orthopedic and rehabilitation assistance.
War Affected Youths Support II    Program to provide improved economic status of vulnerable
(Activity No. 669-0236)           children, and to promote participation of youths in organized sports
                                  programs for positive and constructive community action.




                                                                                                      11
